Supreme Court, U.S.
FILED

SEP 2 8 2020
OFFICE OF THE CLERK

w

No.

IN THE
SUPREME COURT OF THE UNITED STATES

MARY JULIA HOOK, PETITIONER
vs.
LNV CORPORATION, UNITED STATES OF AMERICA, ETAL.
RESPONDENTS
ON PETITION FOR A WRIT OF CERTIORARI TO THE UNITED
STATES COURT OF APPEALS FOR THE TENTH CIRCUIT
PETITION FOR WRIT OF CERTIORARI

■i

M. Julia Hook
Pro Se Attorney-Petitioner
P.O. Box 26155
Little Rock, Arkansas 72221
501.725.9087
mjhook@comcast.net

RECEIVED
OCT 2 " 2020

usssgaaggiiL

QUESTION PRESENTED FOR REVIEW
The question presented for review is whether the United States Court of
Appeals for the Tenth Circuit has so far departed from the accepted and usual
course of judicial proceedings, or sanctioned such a departure by the United States
District Court for the District of Colorado, as to call for an exercise of the Supreme
Court’s supervisory power under Supreme Court Rule 10(a).

Specifically, the

Tenth Circuit grossly abused its inherent power by imposing the sanction of appeal
dismissal against Hook based on its false and defamatory finding that her appeal in
Case No. 19-1131 was “frivolous.” This harsh and unjustified sanction arbitrarily
deprived Hook of her right to appeal and receive meaningful appellate review
under 28 U.S.C. § 1291, and arbitrarily deprived her of her First Amendment right
to access to the courts and her Fifth Amendment right to due process of law;
created the appearance of extreme judicial hostility to and bias against Hook, in
violation of her Fifth Amendment due process right to a fair and impartial
decision-maker on appeal; damaged or destroyed Hook’s personal and professional
reputations (Hook is an attorney), and unjustly opened her up to attorney
disciplinary proceedings by courts and bar authorities, further chilling her First
Amendment right to access to the courts and her Fifth Amendment right to due
process of law; and sanctioned the unlawful judicial taking in the United States
District Court for the District of Colorado of Hook and Smith’s home and personal

property and their substantial equity therein without due process of law or just
compensation, in violation of the Due Process Clause and the Takings Clause of
the Fifth Amendment to the Constitution of the United States.

ii

PARTIES TO THE PROCEEDING (LIST OF PARTIES)
All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:
LNV Corporation
United States of America
The Prudential Home Mortgage Company, Inc.
Saint Luke’s Lofts Homeowner Assoc., Inc.
Debra Johnson in her official capacity as the Public Trustee of the
City and County of Denver, Colorado
PROCEEDINGS IN STATE AND FEDERAL TRIAL AND APPELLATE
COURTS (RELATED CASES)
United States Court of Appeals for the Tenth Circuit; No. 17-1094,
Emergency Petition for a Writ of Mandamus or Prohibition; Dismissed, Procedural
termination without judicial action, April 12, 2017.
United States Court of Appeals for the Tenth Circuit; No. 18-1110, Motion
to Stay Proceedings Pending Appeal; Jurisdictional Defect, Procedural termination
after other judicial action, May 18, 2018.
United States Court of Appeals for the Tenth Circuit; No. 18-1271, Appeal
of district court order granting Plaintiff LNV Corporation’s “Clarifying
Information in Support of Motion for Partial Summary Judgment and Request for
Entry of Summary Judgment on Remaining Issues"; Jurisdictional Defect,
Procedural termination after other judicial action, August 28, 2018.

iii

TABLE OF CONTENTS
Question Presented for Review

1

Parties to the Proceeding

in

Related Cases

in

Table of Contents

IV

Table of Cited Authorities

v

Petition for a Writ of Certiorari

1

Judgment/Opinions/Orders Below

1

Jurisdiction

1

Constitutional and Statutory Provisions Involved

2

Statement of the Case

3

Reasons for Granting the Writ/Argument

19

Conclusion

21

Certificate of Service

23

Attached

Appendix
Page 1 —Appendix A: June 2, 2020 Order and Judgment in Appeal No 19-1131
Page 5—Appendix B: June 2, 2020 Order Denying In Forma Pauperis Motion
in Appeal No. 19-1131
Page 6—Appendix C: June 30, 2020 Order Denying Petition for Rehearing in
Appeal No. 19-1131
Page 8—Appendix D: March 5, 2019 Order in No. 14-cv-00955-RM
Page 17—Appendix E: April 4, 2019 Order in No. 14-cv-00955-RM
Page 22—Appendix F: April 4, 2019 Order on Attorney's Fees and Costs in
No. 14-cv-00955-RM
Page 24—Appendix G: April 5, 2019 Order in No. 14-cv-00955-RM
iv

Page 26—Appendix H: April 5, 2019 Final Judgment in No. 14-cv-00955-RM
Page 29—Appendix I: April 5, 2019 Order on Foreclosure and Judicial Sale in
No. 14-cv-00955-RM
Page 37—Appendix J: November 8, 2017 Order of Discharge in Bankruptcy
No. 17-16354
TABLE OF CITED AUTHORITIES
Cases:
Anderson v. Liberty Lobby, Inc., All U.S. 242 (1986).................

11

Celotex Corp. v. Catrett, All U.S. 317 (1986).............................

11

Knick v. Township ofScott, 588 U.S.___(2019).........................

13,20

Stop the Beach Renourishment v. Florida Department of
Environmental Protection, 560 U.S. 702 (2010).........................

13,20

United Student Aid Funds Inc. v. Espinosa, 559 U.S. 260 (2010)

20

Wildearth Guardians v. U.S. Forest Service, 713 Fed. Supp. 2d 1243 (D. Colo.
April 10, 2010)....................................................................................................

11

Statutes:
11U.S.C. §362

2,7

11U.S.C. §522........

2,18

11 U.S.C. § 524(a)(1)

2, 8, 12, 20

11U.S.C. § 524(a)(2)

2, 8,9

11 U.S.C. §727

2,8

15 U.S.C. § 1648

2, 18

26 U.S.C. § 6334

2, 18

26 U.S.C. § 7403

2, 5, 12

26 U.S.C. § 7403(a)

2,5

26 U.S.C. § 7403(b)........

2,6

26 U.S.C. § 7403(c)........

2, 6, 15, 16

28 U.S.C. § 1291.............

2, 13,20

28 U.S.C. § 1334(e)........

2,7

28 U.S.C. § 1444.............

2, 3, 5, 6

28 U.S.C. § 1915.............

2, 14

28 U.S.C. §§ 2001& 2002

2, 12

28 U.S.C. §2106

3,22
3, 12, 19

28 U.S.C. §§ 3202 & 3203
Colo. Rev. Stat. §§ 13-54-102 & 38-41-201 etseq.

3, 18

Other Authorities:
2, 4, 5, 7

U.S. Consti., Article III
U.S. Consti., Amend. 1, Access to the Courts

2, 10, 20,21

U.S. Consti., Amend. 5, Due Process Clause

2, 4, 10, 11-12,13,16, 20,21
2,4, 13,20,21

U.S. Consti., Amend. 5, Takings Clause
U.S. Consti., Amend. 7, Right to Jury Trial

2, 4, 6, 10,11,17, 18

U.S. Sup. Ct. Rule 10(a).............................

1,3,21

Fed. R. App. P. 24......................................

3, 14

Fed. R. Civ. P. 56(a)..................................

3, 11

vi

PETITION FOR A WRIT OF CERTIORARI
Petitioner respectfully seeks a writ of certiorari to review the judgment/orders
of the United States Court of Appeals for the Tenth Circuit.
CITATIONS OF THE OFFICIAL AND UNOFFICIAL REPORTS OF THE
OPINIONS AND ORDERS ENTERED IN THE CASE
The judgments, opinions and orders below are unpublished, and are
contained in the Appendix to this Petition for a Writ of Certiorari.
STATEMENT OF THE BASIS FOR JURISDICTION IN
THE SUPREME COURT
The judgment/orders sought to be reviewed were entered by the United
States Court of Appeal for the Tenth Circuit on June 2, 2020.
The June 13, 2020 petition for rehearing en banc was denied on June 30,
2020.

The United States of America was a party to the proceedings in the
United States Court of Appeals for the Tenth Circuit.
Jurisdiction is conferred on this Court to review on certiorari the
judgment/order entered by the United States Court of Appeals for the Tenth Circuit
because that Court so far departed from the accepted and usual course of judicial
proceedings, or sanctioned such a departure by the United States District Court for
the District of Colorado, as to call for an exercise of the Supreme Court’s
supervisory power under Supreme Court Rule 10(a).

l

CONSTITUTIONAL PROVISIONS, TREATIES, STATUTES,
ORDINANCES, AND REGULATIONS INVOLVED IN THE CASE
Article III to the Constitution to the United States.
First Amendment to the Constitution of the United States (right to access to
the courts).
Due Process Clause of the Fifth Amendment to the Constitution of the
United States.
Takings Clause of the Fifth Amendment to the Constitution of the United
States.
Seventh Amendment to the Constitution to the United States (right to jury
trial).
11 U.S.C. §362
11 U.S.C. §522
11 U.S.C. § 524(a)(1) & (a)(2)
11 U.S.C. §727
15 U.S.C. § 1648
26 U.S.C. § 6334
26 U.S.C. § 7403(a), (b) & (c)
28 U.S.C. § 1291
28 U.S.C. § 1334(e)
28 U.S.C. § 1444
28 U.S.C. § 1915
28 U.S.C. §§ 2001& 2002
2

28 U.S.C. §2106
28 U.S.C. §§ 3202 & 3203
Sup. Ct. Rule 10(a)
Fed. R. App. P. 24
Fed. R. Civ. P. 56(a)
Colo. Rev. Stat. §§ 13-54-102 & 38-41-201 et seq.
STATEMENT OF THE CASE
On April 3, 2014, the United States of America removed the case filed by
LNV Corporation (“LNV”) against Mary Julia Hook (“Hook”) from the District
Court in and for the City and County of Denver, Colorado to the United States
District Court for the District of Colorado. The removed case was designated as
Civil Action No. 14-cv-00955-RM.
In its federal court complaint, as amended, LNV pled five claims for relief
against Hook under Colorado law, including a claim or cause of action for judicial
foreclosure of Hook and Smith’s1 home in Denver, Colorado based on Hook’s
alleged liability to LNV on the promissory note on Hook and Smith’s home. LNV
alleged that the United States District Court for the District of Colorado had
subject matter jurisdiction under 28 U.S.C. § 1444, despite the fact that Section
1444 is a procedural statute rather than a jurisdictional statute, and despite the fact

'Smith is David Lee Smith, Hook’s husband.
3

that LNV lacked Article III standing to file suit against Hook and Smith in the
United States District Court for the District of Colorado because LNV did not have
possession of the promissory note on Hook and Smith’s home. LNV joined Smith
and the United States into the lawsuit as party Defendants.
In their verified answer to LNV’s amended complaint, Hook and Smith
denied LNV’s allegations and pled affirmative defenses and compulsory
counterclaims against LNV, including LNV’s lack of Article III standing to file
suit against Hook and Smith in the United States District Court for the District of
Colorado, and a continuing conspiracy by LNV and others (including LNV’s
attorneys) to deprive Hook and Smith of their home and other property without due
process of law or just compensation, in violation of the Due Process Clause and the
Takings Clause of the Fifth Amendment to the Constitution of the United States,
and demanded a Seventh Amendment jury trial of all issues so triable. Hook and
Smith requested United States District Judge Raymond P. Moore to dismiss LNV’s
amended complaint for lack of subject matter jurisdiction, but he arbitrarily refused
to do so, despite the fact that LNV failed to plead a federal statute conferring
subject matter jurisdiction on the United States District Court for the District of
Colorado, and failed to plead or establish its Article III standing to file suit against
Hook and Smith in the United States District Court for the District of Colorado.

4

In its answer to LNV’s amended complaint, the United States pled cross
claims against Hook, including a “claim for proceeds” against Hook to collect
federal income taxes allegedly owed by Hook and Smith to the Internal Revenue
Service by judicially foreclosing on allegedly valid tax liens on Hook and Smith’s
home and other property. The United States alleged that the United States District
Court for the District of Colorado had subject matter jurisdiction under 28 U.S.C. §
1444, despite the fact that Section 1444 is a procedural statute rather than a
jurisdictional statute, and despite the fact that the United States failed to plead or
establish its Article III standing to file its “claim for proceeds” against Hook in the
United States District Court for the District of Colorado.
The United States also failed to allege or establish the statutory prerequisites
for filing suit against Hook in the United States District Court for the District of
Colorado under 26 U.S.C. § 7403. Specifically, the United States failed to allege
or establish that the Attorney General or his delegate, at the request of the
Secretary of the Treasury, had directed a civil action to be filed in the United States
District Court for the District of Colorado to enforce the lien of the United States
under Title 26 with respect to such tax or liability or to subject any property of
Hook, of whatever nature, or in which she had any right, title, or interest, to the
payment of such tax or liability, as required by 26 U.S.C. § 7403(a). The United
States failed to allege or establish that all persons having liens upon or claiming
5

any interest in the property involved in such action had been made parties thereto,
as required by 26 U.S.C. § 7403(b). Significantly, the United States failed to
allege or establish that Smith—the co-owner with Hook of their home and other
property

and

the

joint

obligor

with

Hook

on

the

alleged

tax

judgments/liens/liabilities which were the subject of the United States’ "claim for
proceeds" against Hook—had been made a party to its "claim for proceeds" against
Hook. The United States failed to allege or establish that it was seeking the
“adjudication and decree” provided for in 26 U.S.C. § 7403(c) rather than “judicial
foreclosure” under Colorado law—a non-existent claim or cause of action alleged
by LNV in its amended federal court complaint. In the absence of proof of the
statutory prerequisites for filing suit in the United States District Court for the
District of Colorado, Judge Moore lacked jurisdiction to proceed with the United
States’ “claim for proceeds” against Hook in the United States District Court for
the District of Colorado.
In her verified answer to the United States’ cross claims, Hook denied the
United States’ allegations and pled affirmative defenses and compulsory
counterclaims against the United States, and demanded a Seventh Amendment jury
trial of all issues so triable. Hook requested Judge Moore to dismiss the United
States’ cross claims against her for lack of subject matter jurisdiction, but he
arbitrarily refused to do so, despite the fact that 28 U.S.C. § 1444 is a procedural
6

statute rather than a jurisdictional statute, and despite the fact that the United States
failed to plead or establish its Article III standing to file its “claim for proceeds”
against Hook in the United States District Court for the District of Colorado..
On July 11, 2017, Hook and Smith filed their voluntary petition for Chapter
7 bankruptcy in the United States Bankruptcy Court for the District of Colorado in
Case No. 17-16354-TBM, establishing exclusive jurisdiction in the Bankruptcy
Court over the property of the estate, including Hook and Smith’s home and other
property. See 28 U.S.C. § 1334(e). The automatic stay under 11 U.S.C. § 362 also
went into effect on July 11, 2017 as to further or continued litigation by Hook and
Smith’s alleged creditors including LNV and the United States in other courts,
including the United States District Court for the District of Colorado.
On October 4, 2017, the United States filed its Proof of Claim (Claim 5) in
Hook and Smith’s Chapter 7 bankruptcy case alleging that Hook and Smith owed
the Internal Revenue Service $1,056,958.35 for “[tjaxes or penalties owed to
governmental units”—of which $743,301.00 was secured by a lien on “all of
debtor(s) right, title and interest to property,” including “debtor’s principle
residence.”
On October 19, 2017, United States Bankruptcy Judge Thomas B.
McNamara held a preliminary (non-evidentiary) hearing and granted—over Hook
and Smith’s objection—the motion of LNV and its counsel, Duncan E. Barber, to
7

lift the automatic stay in Hook and Smith’s Chapter 7 bankruptcy case with respect
to LNV’s five claims for relief against Hook and Smith in Civil Action No. 14-cv00955-RM. The United States received prior notice of, but did not appear at or
participate in, this preliminary hearing; and Judge McNamara did not lift the
automatic stay in Hook and Smith’s Chapter 7 bankruptcy case with respect to the
United States’ “claim for proceeds” against Hook in Civil Action No. 14-cv00955-RM.
On November 8, 2017, Judge McNamara issued his Order of Discharge
discharging Hook and Smith’s debts under 11 U.S.C. § 727, including Hook and
Smith’s alleged debts to LNV and the United States. The Order of Discharge
states that “[creditors cannot collect discharged debts” and “[t]his order means
that no one may make any attempt to collect a discharged debt from the debtors
personally.”

See also 11 U.S.C. § 524(a)(1) & 524(a)(2), creating a discharge

injunction and voiding “any judgment at any time obtained, to the extent that such
judgment is a determination of the personal liability of the debtor with respect to
any debt discharged under section 727” of Title 11, United States Code.
On November 20, 2017, Judge Moore granted Mr. Barber’s motion to
“reactivate” Civil Action No. 14-cv-00955-RM—over Hook and Smith’s
objection—so that LNV could proceed with its five claims for relief against Hook
and Smith in Civil Action No. 14-cv-00955-RM. However, Judge Moore did not
8

give LNV or Mr. Barber permission to attempt to collect any discharged debts
from Hook and Smith personally, in violation of Judge McNamara’s Order of
Discharge in Hook and Smith’s Chapter 7 bankruptcy case. Nor did Judge Moore
give the United States or its counsel permission to proceed with its “claim for
proceeds” against Hook in Civil Action No. 14-cv-00955-RM, in violation of the
automatic stay in Hook and Smith’s Chapter 7 bankruptcy case; and did not give
the United States or its counsel permission to attempt to collect any discharged
debts from Hook and Smith personally, in violation of Judge McNamara’s Order
of Discharge in Hook and Smith’s Chapter 7 bankruptcy case.
On December 26, 2017, LNV and its counsel, Mr. Barber, filed LNV’s
Proof of Claim (Claim 16) in Hook and Smith’s Chapter 7 bankruptcy case
alleging that Hook and Smith owed LNV $1,245,095.76 based on “Promissory
Note, Deed of Trust and Assignments” and secured by a lien on “debtor’s principle
residence.”
On February 20, 2018, Judge Moore issued his Order arbitrarily denying
Hook and Smith’s motion to supplement/amend their Proposed Pre-Trial Order to
add claims and defenses against LNV and the United States for willful and
malicious violations of Judge McNamara’s November 8, 2017 Order of Discharge
in Hook and Smith’s Chapter 7 bankruptcy case and willful and malicious
violations of the discharge injunction under 11 U.S.C. § 524(a)(2), by continuing
9

to litigate their claims for relief against Hook and Smith in Civil Action No. 14-cv00955-RM. Judge Moore’s February 20, 2018 Order deprived Hook and Smith of
their First Amendment right to access to the courts and their Fifth Amendment due
process right to litigate these claims and defenses in a Seventh Amendment jury
trial.
On March 1, 2018, Judge Moore issued his Order Setting Case for Trial,
setting Civil Action No. 14-cv-00955-RM for a three-day jury trial to commence
on July 23, 2018.
On June 21, 2018, Judge Moore arbitrarily vacated his March 1, 2018 Order
Setting Case for Trial without any statement of reasons.
More than eight months later, on March 5, 2019, Judge Moore issued his
Order arbitrarily granting LNV’s “third” motion for summary judgment and
awarding attorney's fees and costs to LNV of more than $239,000.00 against Hook
personally on LNV's Fifth Claim for Relief (Money Judgment on Note Against
Hook). The attorney’s fees and costs awarded to LNV by Judge Moore were
unproven in the Seventh Amendment jury trial demanded by Hook and Smith in
their verified pleadings in Civil Action No. 14-cv-00955-RM; and were grossly
excessive—smacking of unwarranted punitive sanctions being imposed against
Hook by Judge Moore without Fifth Amendment due process of law.

10

On April 5, 2019, Judge Moore issued his Final Judgment and Order in
Civil Action No. 14-cv-00955-RM arbitrarily granting the motions for summary
judgment of LNV and the United States,2 and awarding them more than
$2,239,000.00 in damages, attorney’s fees and costs against Hook personally on
LNV’s Fifth Claim for Relief (Money Judgment on Note Against Hook) and on the
United States’ “claim for proceeds” against Hook—despite the fact that LNV did
not have possession of the promissory note on Hook and Smith’s home. The
damages, attorney’s fees and costs awarded to LNV and the United States by Judge
Moore were unproven in the Seventh Amendment jury trial demanded by Hook
and Smith in their verified pleadings in Civil Action No. 14-cv-00955-RM, and
were grossly excessive—smacking of unwarranted punitive sanctions being
imposed against Hook by Judge Moore without Fifth Amendment due process of

2Judge Moore grossly misapplied the burdens of production and proof of
LNV and the United States on their motions for summary judgment under Fed. R.
Civ. P. 56(a). See Celotex Corp. v. Catrett, 477 U.S. 317 (1986) and Anderson v.
Liberty Lobby, Inc., 477 U.S. 242 (1986). Judge Moore failed or refused to
consider Hook and Smith’s affirmative defenses and compulsory counterclaims on
these motions for summary judgment; and failed or refused to consider their
witnesses, exhibits and offers of proof made at the Preliminary Trial Preparation
Conference on May 29, 2018. Judge Moore arbitrarily denied Hook’s motions to
compel production of crucially relevant documents from LNV and the United
States by grossly misapplying the standards of review and the procedure for
determining the discoverability of these documents under the crime/fraud
exception to the attorney-client privilege rule, the attorney work product doctrine
and other privileges asserted by LNV and the United States.. See Wildearth
Guardians v. U.S. Forest Service, 713 Fed. Supp. 2d 1243 (D. Colo. April 10,
2010).
li

law. The Final Judgment and Order issued by Judge Moore on April 5, 2019
constituted a determination of the personal liability of Hook and Smith with
respect to their alleged debts to LNV and the United States discharged in their
Chapter 7 bankruptcy case, rendering Judge Moore’s Final Judgment and Order
void under 11 U.S.C. § 524(a)(1). Therefore, Judge Moore lacked jurisdiction to
issue his Final Judgment and Order on April 5, 2019.
Judge Moore also lacked statutory jurisdiction or authority to issue his
Order of Foreclosure and Judicial Sale [of Hook and Smith’s home and other
property] on April 5, 2019. In his Order of Foreclosure and Judicial Sale, Judge
Moore said that he had statutory jurisdiction or authority under 28 U.S.C. §§
2001& 2002. However, these general statutes authorizing a federal judge to sell
property did not give Judge Moore jurisdiction or authority to foreclose on and sell
Hook and Smith’s home and personal property without following 26 U.S.C. § 7403
and the other procedures in the Internal Revenue Code (Title 26, United States
Code) for tax lien foreclosures and sales of property. See also 28 U.S.C. §§ 3202
& 3203 of the Federal Debt Collection Procedure (28 U.S.C. § 3001 et seq.)
applicable in this case. 28 U.S.C. §§ 2001& 2002 certainly did not give Judge
Moore the jurisdiction or authority to evict Hook and Smith from their home,
under threat of being arrested by the United States Marshal and/or being held in
contempt of court by Judge Moore if they did not obey his order to vacate their
12

home within 15 days after entry of his April 5, 2019 Order of Foreclosure and
Judicial Sale; or to seize and detain their personal property; or to sell their home
and personal property as a means of collecting for LNV and the United States the
damages, attorney’s fees and costs of more than $2,239,000.00 awarded by Judge
Moore to LNV and the United States against Hook and Smith personally in his
April 5, 2019 Final Judgment and Order in Civil Action No. 14-cv-00955-RM. In
the absence of statutory jurisdiction or authority, these orders, judgments and
actions by Judge Moore were unlawful judicial takings of Hook and Smith’s home
and personal property without due process of law or just compensation, in violation
of the Due Process Clause and the Takings Clause of the Fifth Amendment to the
Constitution of the United States. See Stop the Beach Renourishment v. Florida
Department of Environmental Protection, 560 U.S. 702 (2010); Knickv. Township
of Scott, 588 U.S.

(2019).

Therefore, Judge Moore lacked statutory

jurisdiction to issue what was a clearly unconstitutional Order of Foreclosure and
Judicial Sale on April 5, 2019.
On April 10, 2019, Hook filed her Notice of Appeal from all final decisions
of the United States District Court for the District of Colorado in Civil Action No.
14-cv-00955-RM. Appellate jurisdiction in the United States Court of Appeals for
the Tenth Circuit was based on 28 U.S.C. § 1291, providing that “[t]he courts of
appeal (other than the United States Court of Appeals for the Federal Circuit) shall
13

have jurisdiction of appeals of all final decisions of the district courts of the United
States.” Hook’s appeal was docketed in the Tenth Circuit as Case No. 19-1131.
On April 11, 2019, Judge Moore issued his Order Denying Hook's April 10,
2019 Motion for Leave to Proceed on Appeal Pursuant to 28 U.S.C. § 1915 and
Fed. R. App. P. 24 finding “that this appeal is not taken in good faith because
Defendant M. Julia Hook has not shown the existence of a reasoned, nonfrivolous
argument on the law and facts in support of the appeal.” Hook denies the truth of
Judge Moore’s finding, which created the appearance of extreme judicial hostility
to and bias against Hook.
On April 20, 2019, at 11:59 p.m. MDT, Hook and Smith vacated their home
of 25 years in Denver, Colorado, leaving the key in the mailbox for Mr. Barber
and/or the United States Marshal for the District of Colorado, as ordered by Judge
Moore in his April 5, 2019 Order of Foreclosure and Judicial Sale. Hook and
Smith were unable to remove all of their personal property from their home due to
their financial circumstances and the shortness of time (15 days) to comply with
Judge Moore's Order of Foreclosure and Judicial Sale. The status of the “Judicial
Sale” of Hook and Smith’s home and personal property was unknown to them.
More than eight months later, on January 8, 2020, the United States
Marshal, purporting to act "pursuant to law" and in compliance with Judge
Moore’s April 5, 2019 Order of Foreclosure and Judicial Sale, offered Hook and
14

Smith's home in Denver, Colorado for sale. At the February 20, 2020 sale, the
United States Marshal purportedly sold Hook and Smith's home and "all of the
personal property located thereon"3 to LNV for $1,514,914.80.
On March 2, 2020, Judge Moore issued his Order Confirming Judicial Sale
[of Hook and Smith’s home and personal property], stating in part that the United
States Marshal "properly conducted the sale of the real property”; and that Hook
and Smith's home "was sold to LNV Corporation, being the highest credit bid."
The March 2, 2020 Order confirmed the sale and ordered the United States
Marshal to "execute and deliver to the purchaser a deed of judicial sale conveying
the property to the purchaser."

Judge Moore referenced the “record” in Civil

Action No. 14-cv-00955-RM and the “facts and circumstances” of that case, as
well as “the Court’s Order of Foreclosure and Judicial Sale” and the “Notice of
Sale [Aplt. App. at 207-209] & Certificate of Purchase [Aplt. App. at 220-238]”
as being the basis for his March 2, 2020 Order Confirming Judicial Sale.
In issuing his March 2, 2020 Order Confirming Judicial Sale, Judge Moore
failed or refused to follow 26 U.S.C. § 7403(c), providing as follows:
(c) Adjudication and Decree
3Despite the United States Marshal's misrepresentation in the Certificate of
Purchase, Hook and Smith's personal property was not offered for sale in the
January 8, 2020 Notice of Sale. Nevertheless, Hook and Smith's real property and
"all of the personal property located thereon " [emphasis added] was sold to LNV
at the February 20, 2020 sale as if such personal property had in fact been included
in the January 8, 2020 Notice of Sale.
15

The court shall, after the parties have been duly notified of the action,
proceed to adjudicate all matters therein and finally determine the
merits of all claims to and liens upon the property, and, in all cases,
where a claim or interest of the United States therein is established,
may decree a sale of such property, by the proper officer of the court,
and a distribution of the proceeds of such sale according to the
findings of the court in respect to the interests of the parties and the
United States. If the property is sold to satisfy a first lien held by the
United States, the United States may bid at the sale such sum, not
exceeding the amount of such lien with expenses of sale, as the
Secretary directs.
Judge Moore failed or refused to “adjudicate all matters therein and finally
determine the merits of all claims to and liens upon the property.” In fact, Judge
Moore merely rubber-stamped the United States Marshal’s sale of Hook and
Smith’s home and personal property and distributed $1,514,914.80 from the sale to
LNV without holding a Fifth Amendment due process hearing or making any
findings “in respect to the interests of the parties and the United States,” as
required by 26 U.S.C. § 7403(c). As a consequence of this rubber-stamp process,
Judge Moore failed or refused to make any finding or determination of the total
amount of the April 5, 2019 Final Judgment and Order in favor of LNV and the
United States, leaving Hook and Smith without a clue as to which alleged debts to
the United States and LNV have been collected and/or satisfied, and unjustly
opening them up to further attempted collections by LNV and the United States.
Judge Moore also failed or refused to set off amounts owed by LNV to Hook
and Smith against the $1,514,914.80 distributed to LNV from the sale to LNV of
16

their home and personal property. Judge Moore failed or refused to determine the
fair market value of Hook and Smith’s home and personal property4 or the
amounts owed by LNV to Hook and Smith based on the affirmative defenses and
compulsory counterclaims pled by Hook and Smith against LNV in Civil Action
No. 14-cv-00955-RM. If Judge Moore had taken these affirmative defenses and
compulsory counterclaims into consideration, Hook and Smith would not have
owed $1,514,914.80 or any amount to LNV. LNV would have owed Hook and
Smith an amount to be determined by the jury in the Seventh Amendment jury trial
demanded by them in their verified pleadings in Civil Action No. 14-cv-00955RM.
Judge Moore also failed or refused to determine the amounts owed by the
United States to Hook and Smith based on the affirmative defenses and
compulsory counterclaims pled by Hook against the United States in Civil Action
No. 14-cv-00955-RM. If Judge Moore had taken these affirmative defenses and
compulsory counterclaims into consideration, Hook and Smith would not have
owed any amount to the United States. The United States would have owed Hook
4The $1,514,914.80 distributed to LNV from the sale was the amount of
LNV’s “credit bid” to purchase Hook and Smith’s home and personal property, not
the fair market value of their home and personal property. This unauthorized use
of a “credit bid” as a substitute for determining the fair market value of Hook and
Smith’s home and personal property as the basis for the sale constituted a fraud
upon Hook and Smith, resulting in a theft in the United States District Court for the
District of Colorado of their home and personal property and their substantial
equity therein.
17

and Smith an amount to be determined by the jury in the Seventh Amendment jury
trial demanded by them in their verified pleadings in Civil Action No. 14-cv00955-RM.
Judge Moore also failed or refused to distribute to Hook and Smith the
amount of their homestead and personal property exemptions under 26 U.S.C. §
6334, 11 U.S.C. § 522, and Colo. Rev. Stat. §§ 13-54-102 & 38-41-201 et seq. In
fact, Judge Moore failed or refused to acknowledge that Hook and Smith’s home
and personal property were part of the bankruptcy estate in their Chapter 7
bankruptcy case or that Hook and Smith were entitled to homestead and personal
property exemptions in the distribution of proceeds from the sale of their home and
personal property in Civil Action No. 14-cv-00955-RM. Hook and Smith were
thus deprived of their right to receive the amount of their homestead and personal
property exemptions in the distribution of proceeds to provide the “fresh start”
after bankruptcy intended by Congress in enacting the United States Bankruptcy
Code (Title 11, United States Code).
Judge Moore also failed or refused to lift or remove the federal tax liens on
their home so they could qualify for a reverse mortgage on their home under 15
U.S.C. § 1648. Hook challenged the validity and amounts of these federal tax liens
in the affirmative defenses and compulsory counterclaims pled by her against the
United States in Civil Action No. 14-cv-00955-RM. Judge Moore failed or refused
18

to acknowledge that Hook and Smith could qualify for a reverse mortgage on their
home if he lifted or removed the federal tax liens on their home. Hook and Smith
(aged 73 and 75, respectively) were thus arbitrarily deprived of their right to
qualify for a reverse mortgage on their home.
Judge Moore also failed or refused to follow the procedures set forth in 28
U.S.C. §§ 3202 & 3203. These procedures are part of the Federal Debt Collection
Procedure (28 U.S.C. § 3001 etseq.) applicable in this case.
On June 2, 2020, a three-judge panel of the Tenth Circuit (composed of
Circuit Judges Briscoe, Lucero and Hartz} issued its Order and Judgment in Case
No. 19-1131 imposing the sanction of appeal dismissal against Hook based on its
false and defamatory finding that the appeal was “frivolous.”

As a further

sanction, the panel denied Hook’s Motion to Proceed In Forma Pauperis on
Appeal and ordered her to pay the filing fee for her appeal.
ARGUMENT
In her briefs on appeal in Case No. 19-1131, Hook made the following
arguments: (1) Judge Moore has been proceeding without or in excess of his
jurisdiction in Civil Action No. 14-cv-00955-RM since the United States removed
the case from the District Court in and for the City and County of Denver,
Colorado to the United States District Court for the District of Colorado on April
3, 2014; (2) Judge Moore’s final judgments and orders in Civil Action No. 14-cv19

00955-RM were premised on jurisdictional errors and due process violations,
rendering them void under United Student Aid Funds Inc. v. Espinosa, 559 U.S.
260 (2010); (3) Judge Moore’s final judgments and orders in Civil Action No. 14cv-00955-RM constituted determinations of Hook and Smith’s personal liability
with respect to their alleged debts to LNV and the United States discharged in their
Chapter 7 bankruptcy case, rendering them void under 11 U.S.C. § 524(a)(1); (4)
Judge Moore’s final judgments and orders in Civil Action No. 14-cv-00955-RM
constituted unlawful judicial takings of Hook and Smith’s home and personal
property without due process of law or just compensation, in violation of the Due
Process Clause and the Takings Clause of the Fifth Amendment to the Constitution
of the United States. See Stop the Beach Renourishment v. Florida Department of
Environmental Protection, 560 U.S. 702 (2010); Knick v. Township of Scott, 588
U.S.___(2019).
The Tenth Circuit panel grossly abused its power by imposing the sanction
of appeal dismissal against Hook based on its false and defamatory finding that her
appeal in Case No. 19-1131 was “frivolous.” This harsh and unjustified sanction
arbitrarily deprived Hook of her right to appeal and receive meaningful appellate
review under 28 U.S.C. § 1291, and arbitrarily deprived her of her First
Amendment right to access to the courts and her Fifth Amendment right to due
process of law; created the appearance of extreme judicial hostility to and bias
20

against Hook, in violation of her Fifth Amendment due process right to a fair and
impartial decision-maker on appeal; damaged or destroyed Hook’s personal and
professional reputations (Hook is an attorney), and unjustly opened her up to
attorney discipline proceedings by courts and bar authorities, further chilling her
First Amendment right to access to the courts and her Fifth Amendment right to
due process of law; and sanctioned the unlawful judicial taking in the United States
District Court for the District of Colorado of Hook and Smith’s home and personal
property and their substantial equity therein without due process of law or just
compensation, in violation of the Due Process Clause and the Takings Clause of
the Fifth Amendment to the Constitution of the United States.
Based on the foregoing, the United States Court of Appeals for the Tenth
Circuit has so far departed from the accepted and usual course of judicial
proceedings, or sanctioned such a departure by the United States District Court for
the District of Colorado, as to call for an exercise of the Supreme Court’s
supervisory power under Supreme Court Rule 10(a).
CONCLUSION
Hook respectfully requests the Supreme Court to grant her Petition for a
Writ of Certiorari, and to grant such other and further relief as may be just under
the circumstances, including an order vacating, setting aside, or reversing the

21

Tenth Circuit panel’s June 2, 2020 Order and Judgment in No. 19-1131 under 28
U.S.C. § 2106 providing for such relief.
Dated this 28th day of September, 2020.
Respectfully submitted,

/s/ iW. yutia ‘Jfoof^
M. Julia Hook
Pro Se Attomey/Defendant-Appellant
Colorado Bar No. 006969
P.O. Box 26155
Little Rock, Arkansas 72221
501.725.9087
mihook@comcast.net

22

